Nos. 19-251 & 19-255
IN THE

impretne Court of the Eniteb 6tatett
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,

v.
MATTHEW RODRIQUEZ, IN HIS OFFICIAL CAPACITY AS
THE ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
THOMAS MORE LAW CENTER,
Petitioner,

v.
MATTHEW RODRIQUEZ, IN HIS OFFICIAL CAPACITY AS
THE ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
On Writs of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

AMICUS CURIAE BRIEF OF THE
NATIONAL COUNCIL OF NONPROFITS
IN SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,315 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 31, 2021.

Colin Case ogan
Wilson-Epes Printing Co., Inc.

